<1

25

Supreme Court
of the United States

X
:

Petition for a Writ of Certiorari
to NYS Court of Appeals

Gerald Aranoff,
Petitioner
filed

S& 2 1 2020

against

OFFICE np

ItlFCLERK

Susan Aranoff,
Respondent

X
State of Israel
Tel-Aviv

SS:

Gerald Aranoff, being duly sworn, deposes and says:

Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il

RECEIVED
DEC -2 2020

U;

Contents
1

Opinions Below

1

2 Statement of the Case

3

3 Reasons for Granting the Petition

8

4 Conclusion

9

5 List of Appendices

10

Questions Presented
The questions presented are:
Are the NYS Court of Appeals’ rulings consistent with the NYS constitutional require­
ment to articulate statewide principles of law in the context of deciding particular law­
suits? Can the NYS courts brush aside all efforts for Petitioner a) to cancel $25,000
fines against him and b) to cancel TIAA paying 55% of his pension to his ex-wife and
c) to cancel awarding the house in 2013 to his ex-wife he divorced in 1993?

List of Parties
All parties appear in the caption of the case on the cover page.
Susan Aranoff, Respondent
498 East 18 Street, Brooklyn, NY 11226 USA
phones: 718-284-2093 917-671-7274
email: susanaranoff@gmail.com;

Gerald Aranoff, PetitionerI
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il

1

1

Opinions Below

See Appendix A and see Appendix B
1. State of New York
Court of Appeals
Decided and Entered on the
tenth day of September, 2020
Present, Hon. Janet DiFiore, Chief judge, presiding
Mo. No. 2020-352
Susan Aranoff,
Respondent,
v.
Gerald Aranoff,
Appellant.
Appellant having moved to the Court of Appeals in the above
cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the Motion is dismissed upon the ground that the paper
sought to be appealed from is not an order or judgment appealable to the Court
of Appeals (see CPLR 5512).
John P. Asiello
Clerk of the court
2. SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF KINGS: PART 5A
X
Aranoff, Susan
Index No. 54688/12
Plaintiff
-againstAranoff, Gerald
Defendant
X
The defendant, Gerald Aranoff, submitted two applications for relief to this
Court, each by Notice of Motion. In his Notice of Motion for leave to Make a
Motion, dated November 14, 2016, the defendant/movant requested the ability to
have this Court issue a “Judgment” preventing TIAA from paying the plaintiff
55% of his pension. In his Notice of Motion for leave to Make a Motion, dated
September 6, 2016, the defendant/movant sought permission from this Court to
formally seek the relief of an Order “for TIAA to stop paying Susan [plaintiff]
55% of my pension”. Each application was originally returnable on September 20,
2016.
The Court notes that the applications are defective as pursuant to the Court
Rules, Part J, Uniform Rules, Motions and Orders to Show Cause, §23. The

2

movant was required to make his application to this Court by order to Show cause
but failed to do so. The plaintiff, Susan Aranoff opposed the requested relief and
in opposition papers contained therein is what is denominated as a cross motion.
While all the applications are defective, the Court, nonetheless, will address the
issues raised.
Mr. Aranoff objects to the payment of 55% of his TIAA-CREF pension to
the defendant. The papers are replete with statements, letters, and materials that
have no bearing on the application or the underlying matrimonial proceeding and
its resolution. The defendant’s opposition lays out the long and tortured history of
this case and the seemingly endless litigation she was subjected to by Mr. Aranoff.
The time to object or appeal the pension award or any other award to the plaintiff
has long since passed. Consequently, Mr. Aranoff’s claims are time barred and at
this late stage are nothing short of frivolous.
Accordingly, Mr. Aranoff’s applications are denied in toto with prejudice.
Mr. Aranoff is ordered not to file any further proceedings before this court. Mr.
Aranoff is ordered not to contact this court, the clerk’s office or chamber’s staff as
all his requests are time barred and nothing less than a waste of this court s time
and resources.
As to the cross motion, while defective, the court, in any event is unable to
grant relief to the plaintiff. This court does not have jurisdiction over the Social
Security Administration, a Federal agency. The plaintiff is certainly free to contact
the agency to enforce her rights under the Judgment of Divorce pursuant to it’s
rules and guidelines.
This constitutes the decision and order of the court.
ENTER
HON. ERIC I. PRUS, J.S.C.
HON. ERIC I. PRUS, J.S.C.
NOV 18 2016

3

2

Statement of the Case

1. I request permission to make this petition. I'm acting pro se. I request the Court
to accept my papers without notarization since, in Israel, a US citizen can only get
court acceptable notarizations from the US embassy by appointment, and none are
available now. I request the Court to accept my papers on size A4 paper and not
letter size since in Israel it’s hard to obtain letter size paper. I request the Court
to accept one copy from me since it’s difficult for me to prepare 10 copies. My
dear wife, Yemima,, is retired from her employment as a clerk at Bank Mizrachi.
We were married May 9, 1993, after I divorced Susan February 17, 1993. We are
blessed with 3 daughters: Hadassah, Tamar, and Sapphire Rivka. Each has a USA
social security number. I ask the court to allow me to report only my income and
assets, as Yemima’s income and assets are not large and not relevant.
2. I seek from the Supreme Court of the United States:
First, for a decision that NYS courts have no more control over the QDRO that
tells TIAA to pay Susan 55% of my pension with no end in sight in violation of
ERISA. Second, to cancel and nullify Judge Prus’ awarding my house to Susan.
Third, to cancel and nullify $25,000 in fines unpaid against me ($10,000 + $10,000
of the late Judge Rigler and $5,000 of the late disgraced Judge Garson).
3. The Rules of the Court state: “Review on a writ of certiorari is not a matter of
right, but of judicial discretion. A petition for a writ of certiorari will be granted
only for compelling reasons.” I’m asking the court to accept my petition on the
grounds of fraud/forgery/etc. Time limits on filing cases based on fraud/forgery etc
are extremely long. Often the police and court officials show no interest in evidence
of crimes of fraud/forgery. An aggrieved party may have to be patient over many
years, as I am, for overwhelming evidence to emerge of crimes fraud/forgery. See
http://uswhistleblower.org/documents/The%20Worst%20Family%20Court%20Judges
%20in%20New%20York%20State%20in%202018.pdf
“24. Eric Prus (Kings County Supreme Court). Arrogant and obnoxious
to litigants, Prus regularly fails to enforce stipulations entered into by the
litigants in his own court. In one case, Prus had the father arrested in the
courtroom and entered an order of protection where he could not even
see his two daughters. In another case, he refused all applications by the

4
father even though he was the custodial parent. He then jailed the father
for failing to follow an oral order and caused his savings to be placed
into escrow for many years - ruining him in the process. His conduct
is unbecoming of a judge: he recently yelled at a lawyer regarding a
statement of net worth; screamed at a father about paying money; and
bawled at a mother about visits. This conduct is in violation of judicial
canon Section 100.3 (B)(3) ( “A judge shall be patient, dignified and
courteous to litigants, jurors, witnesses, lawyers and others with whom
the judge deals in an official capacity”). To top it all off, he regularly
falls asleep during hearings.”
4. 1 thank God that I’m in Israel where Judge Eric I. Prus cannot do to me as he did,
e.g. “In another case, he refused all applications by the father even though he was
the custodial parent. He then jailed the father for failing to follow an oral order
and caused his savings to be placed into escrow for many years - ruining him in
the process.”
5. The late disgraced Judge Gerald Garson fined me $5,000 on December 12, 2001.
On November 14, 2001 Susan didn’t show up for a hearing and called in and asked
for a month’s delay. On December 12, 2001 Gerald Garson threw Ian Anderson,
my long time lawyer, out of the room and made him afraid to represent me and
fined me $5,000—all for no good reason. Judge Michael Ambrosio ruled, years
later after evidence emerged of the crimes of Gerald Garson, for no good reason,
that I must pay all $25,000 fines against me before he’ll allow a re-opening of my
case!
6. Overt glaring acts of forgery, lies, and judicial fraud are so manifest in my papers—
whether or not I have an appealable paper is a red herring. Appendix C Email
between Gerald Aranoff and Secretary to Judge Eric I. Prus and Appendix D
Letter from NYS Court of Appeals May 11, 2020 and Appendix E Letter from
NYS Court of Appeals June 10, 2020 make clear that the NYS Court of Appeals
Mo. No. 2020-352 is not based on an appealable paper but on fraud. Susan won
the house and my pension based on fraud.
7. Judge Prus Order September 25, 2015:
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF KINGS
X

5
INDEX NO. 54688/12
Aranoff, Susan
Plaintiff
against
ORDER
Aranoff, Gerald
Defendant
X
A motion having duly come on to be heard before this Court on June 30,
2015, for an Order pursuant to Section 221 of the Real Property Actions and
Proceedings Law, awarding relief to the Plaintiff, and for such other and further
relief as to this Court may seem just and equitable.
NOW, after reading and filing the Order to Show Cause dated March 23,
2015, the exhibits annexed and proof of service thereof, in support thereof, and
there being no appearance by the defendant and after due deliberations having
been had thereon;
NOW, on motion of Titone & Serlin, LLP, attrneys for Plaintiff, it is ordered

that:
The Plaintiff’s motion is GRANTED to the extent that the Sheriff is
1.
Ordered to execute the deed for the premises located at 498 East 18th Street,
Brooklyn, New York on behalf of the defendant, Gerald Aranoff, conveying any
and all interest held in the property located at 498 East 18th Street, Brooklyn,
New York by Gerald Aranoff into the name of Susan Aranoff, individually.
2. The County Clerk of the City of New York is Ordered to record the deed
signed by the Sheriff on behalf of Gerald Aranoff and to issue a new deed for the
premises located at 498 East 18th Street, Brooklyn, New York into the name of
Susan Aranoff, individually.
The portion of the emotion asking for costs and sanctions is hereby
3.
DENIED.
ORDERED that a copy of this Order with Notice of Entry thereof be served
upon the defendant..
ENTER
Hon. Eric Prus
Dated: SEP 25 2015
HON. ERIC I. PRUS, JSC
(a) Clearly Judge Prus and Susan knew very well that the value of the property at
498 East 18th Street, Brooklyn, New York vastly exceeds any supposed debt
I had for child support. Even with figuring the child support retroactive to
when I was still in Brooklyn and Susan was behaving sweet and lovely to me.

6
Even with 9% compounded interest on a phony balance. Even with Susan
receiving 55% of my TIAA pension from early 1994 for child support. The
initial judge of my case was Judge Ambrosio. I filed complaints, to no avail,
against Judge Ambrosio, Judge Garson and Judge Prus with the Commission
on Judicial Conduct.
(b) The September 10, 2013 Judgment of Divorce had the lie: “the Separation
Judgment dated March 7, 1995 an original of which is on file with this Court
along with a transcript of the proceedings and Order of the Supreme Court
Kings County by Judge Rigler and incorporated herein by reference.” My
SCOTUS docket numbers 18-7160 and 18-9390 focused on the lie of the
fake/phony March 7, 1995 Rigler order of separation. Note that Judge Prus
Order September 25, 2015 orders that a copy of this Order with Notice of
Entry thereof be served upon the defendant. It is gross judicial misconduct
that Judge Prus won’t send me a copy of the supposed March 7, 1995 Rigler
order of separation. This is a critical document I have a right to see.
8. Judge Prus Final Order November 18, 2016 (see Appendix B):
(a) Clearly Judge Prus and Susan knew very well that I divorced Susan 2/17/1993
in an Israeli Rabbinic Court with Susan plaintiff and Rabbi Aryeh Ralbag a
principal. Judge Prus Final Order November 18, 2016 contains lies. It is
a lie: “The papers are replete with statements, letters, and materials that
have no bearing on the application or the underlying matrimonial proceeding
and its resolution.” My papers were clear, brief, direct and argued well and
supported with documents.
(b) It is a lie: “The defendant’s opposition lays out the long and tortured history
of this case and the seemingly endless litigation she was subjected to by Mr.
Aranoff.” Susan’s package of October 21, 2016 was replete with statements,
letters, and materials that have no bearing on the legal issues involved: the
$25,000 fines against me and TIAA paying her 55% of my pension. It is a lie
that I subjected Susan to endless litigation. Truth that Susan subjected me
to endless litigation.
(c) It is a lie: “The time to object or appeal the pension award or any other

7
award to the plaintiff has long since passed.” It is a lie to call paying Susan
55% of my TIAA pension a pension award. A pension falls under the ERISA
rules.
(d) It is a he: “Consequently, Mr. Aranoff’s claims are time barred and at this
late stage are nothing short of frivolous.” The legal issues outstanding are the
$25,000 fines against me and paying 55% of my TIAA to Susan in violation
of ERISA.
(e) It is a lie: “The plaintiff is certainly free to contact the agency to enforce her
rights under the Judgment of Divorce pursuant to it’s rules and guidelines.”
Susan gained no rights under the September 10, 2013 Judgment of Divorce
that she could contact the USA Social Security Administration to take from
my USA social security.
9. In NYS civil court proceedings judges can threaten and intimidate me, a husband
and father, and also TIAA who administers pensions. It’s so difficult for husbands
and fathers and for TIAA to fight unethical judges. What’s to prevent unethical
judges from sanctioning and taking away assets, unfairly, men the judges views as
against feminism or whatever or don’t pay bribes?

8

3

Reasons for Granting the Petition

The trial and jail sentence of the late Judge Gerald Garson was just the tip of the
iceberg of fraud etc in NYS civil courts. The Court granting me my petition will
help root out fraud in NYS civil courts.

9

4

Conclusion

The petition for a writ of certiorari should be granted.

Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il
Sworn this 25th day of November 2020.

